BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 20-1062, Chad
Bennett v. State of Washington, was sent via Two Day
Service to the U.S. Supreme Court, and 3 copies were
sent Two Day and via e-mail service to the following
parties listed below, this 17th day of May, 2021:
Garth Louis Dano
Kevin J. McCrae
Grant County Prosecutor's Office
P.O. Box 37
Ephrata, WA 98823
(509) 754-2011
kburns@grantcountywa.gov
kmccrae@grantcountywa.gov

Counsel for Respondent
Lila J. Silverstein
Counsel of Record
Washington Appellate Project
1511 3rd Avenue
Suite 610
Seattle, WA 98101
(206) 587-2711
lila@washapp.org

Counsel for Petitioner

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 17, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

S-/1 1
J

CJi O+,.,
[seal]

/,)_,

•

